<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 115,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DoD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to counter-terrorism to Post-Traumatic Stress Disorder (PTSD) 
and Traumatic Brain Injury (TBI). More than ever before, psychologists 
today bring unique and critical expertise to meeting the needs of our 
military and its personnel. APA's testimony focuses on (1) reversing 
Administration cuts to the overall DoD Science and Technology (S&T) 
budget; (2) maintaining support for important behavioral sciences 
research within DoD; (3) continuing support for defense health 
research; and (4) addressing TRICARE cuts and contractor issues 
regarding mental health treatment.
(1) Reverse Fiscal Year 2018 Proposed Cuts to DoD Science & Technology 
        Account
    In line with the Coalition for National Security Research (CNSR), 
of which APA is one of 90 member organizations, we urge the 
Subcommittee to reverse the Administration's proposed step backwards 
and instead provide $14.5 billion for DoD overall S&T in fiscal year 
2018.
    APA is concerned that the Administration's fiscal year 2018 request 
slashes the overall defense science and technology account (S&T) by 5.8 
percent. Across the board, except for an increase in Navy basic (6.1) 
research, all of the critical Army, Navy, and Air Force basic and 
applied research (6.2) and advanced technology development (6.3) 
accounts would be cut. Within the Army research program alone, greater 
than 20 percent of both Army applied and advanced technology research 
support would be slashed in fiscal year 2018. Though APA is pleased to 
see the Administration propose a healthy 9.7 percent increase in fiscal 
year 2018 for the Defense Advanced Research Projects Agency (DARPA), 
this Presidential Budget Request fails to advance vital research 
throughout DoD, and the request would diminish our Nation's ability to 
keep up with scientific and technological innovations.
(2) Maintain Support for DoD Behavioral Science Research in Fiscal Year 
        2018
  --``People are the heart of all military efforts. People operate the 
        available weaponry and technology, and they constitute a 
        complex military system composed of teams and groups at 
        multiple levels. Scientific research on human behavior is 
        crucial to the military because it provides knowledge about how 
        people work together and use weapons and technology to extend 
        and amplify their forces.''
  --Human Behavior in Military Contexts
  --Report of the National Research Council
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad 
(and their families), psychological scientists within DoD conduct 
cutting-edge, mission-specific research critical to national defense. 
Within the S&T program, APA encourages the Subcommittee to follow 
recommendations from the National Academies and the Defense Science 
Board to fund priority research in the behavioral sciences in support 
of national security. Psychological scientists address a broad range of 
important issues and problems vital to our national defense, with 
expertise in modeling behavior of individuals and groups, understanding 
and optimizing cognitive functioning, perceptual awareness, complex 
decisionmaking, stress resilience, recruitment and retention, and 
human-systems interactions.
    Within DoD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute for the 
Behavioral and Social Sciences (ARI) and Army Research Laboratory 
(ARL); the Office of Naval Research (ONR); and the Air Force Research 
Laboratory (AFRL), with additional, smaller human systems research 
programs funded through the Office of the Secretary of Defense (OSD) 
and DARPA. The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing.
(3) Support Defense Health Research and Programs Promoting 
        Servicemember Mental Health and Well-Being
    DoD also supports psychological research and programming beyond its 
service laboratories. APA urges the Subcommittee to fully fund Health 
Affairs and other offices addressing research and programming in the 
crucial areas of Servicemember mental health and well-being--
particularly efforts addressing suicide prevention. APA, in line again 
with CNSR, requests that the Subcommittee increase its support for 
DoD's Peer-Reviewed Congressionally Directed Medical Research Programs 
from $1.28 billion in fiscal year 2017 to $1.33 billion in fiscal year 
2018. The Subcommittee has shown extraordinary leadership in ensuring 
that these research programs are continued in mission-critical areas 
such as PTSD and TBI.
(4) Address TRICARE Cuts and Contractor Issues
    As an organization that supports military personnel, veterans, and 
their families, as well as the psychologists who serve them, we are 
concerned about the Administration's proposed fiscal year 2018 cut to 
TRICARE, and about proposed reimbursement rate cuts by Humana and 
Health Net Federal Services (HNFS) for TRICARE mental health providers. 
These may have significant impacts on network adequacy and access to 
mental healthcare for highly-stressed military-connected families and 
communities.
    As TRICARE assesses whether Humana and HNFS are complying with 
network adequacy obligations, we hope DoD considers the markers we hold 
as true indicators of adequacy, including: the number of psychologists 
a beneficiary has to call before getting an appointment, how long it 
takes to get an appointment, and how far the beneficiary has to travel 
for treatment. Even requiring beneficiaries to change mental health 
professionals (because the one with whom they have developed trust and 
rapport has left the network) is disruptive, and sometimes untenable. 
This is especially true for those who have developed a relationship 
with someone with the expertise to handle diagnoses such as PTSD.

    [This statement was submitted by Howard Kurtzman, PhD, Acting 
Executive Director for Science, American Psychological Association.]
                                 ______
                                 
          Prepared Statement of the Calgon Carbon Corporation
    Chairman Cochran, Ranking Member Durbin, and members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
submit outside witness testimony. I am writing to tell you about Calgon 
Carbon Corporation, which is a world leader in the development and 
manufacturing of granular activated carbon products that make water 
safer and cleaner. More specifically, I am writing to describe the work 
Calgon Carbon is doing to remediate groundwater and drinking water 
contamination issues on U.S. military bases, as it pertains to 
perfluourinated chemicals (PFCs--including PFOA/PFOS).
                       calgon carbon corporation
    Calgon Carbon is a world leader in the development and 
manufacturing of technologies for the purification of drinking water, 
wastewater, odor control, pollution abatement, and a variety of 
industrial and commercial manufacturing and food processes. We 
currently offer more than 100 different Activated Carbon products that 
are used in over 700 distinct applications from purifying air and 
drinking water, to purifying foods and pharmaceuticals, to separating 
gas and removing mercury emissions from power plants. Calgon Carbon's 
cost-effective, environmental remediation/recycle programs combine the 
proper mix of an effective activated carbon, ingenious adsorption 
systems, and professional field/technical services into economically 
efficient solutions for users.
                               the issue
    Chemical contamination in ground water, and the potential for those 
chemicals to end up in drinking water of Department of Defense (DoD) 
facilities and nearby communities, is a significant concern across the 
DoD complex. Regulated chemicals are routinely monitored and efforts 
are taken to reduce their impact on the environment and human health. 
However, a growing list of emerging contaminants, many of which are not 
regulated but pose a significant risk to the environment and human 
health, are being identified in ground water and drinking water used by 
DoD and surrounding communities.
    Congress and DoD have expressed concern about actual and potential 
instances of contaminated drinking water on and around military bases. 
For example, the use of firefighting foams during training exercises 
and actual incidents caused perfluorinated chemicals to enter the 
ground and drinking water supply.
    Some of these emerging contaminants are making headlines across the 
country--including perfluorinated chemicals, or PFCs, (a group of 
chemicals used in fire fighting foams whose negative environmental and 
health impacts were studied as long ago as 1979), trichloroethylene/
perchloroethylene, or TCE/PCE, (chemicals used in solvent degreasing 
operations, pharmaceutical chemicals (from improperly disposed 
prescription medication and other sources), and many more.
    The environmental and human health issues arising from these 
situations, which are summarized in a 2015 report \1\--prepared by the 
Association of State and Territorial Solid Waste Management Officials 
(ASTSWMO) Federal Facilities Research Center's Remediation and Reuse 
Focus Group with assistance from the U.S. Environmental Protection 
Agency--challenge DoD to promptly remove these chemicals from the 
ground water and drinking water.
---------------------------------------------------------------------------
    \1\ https://clu-in.org/download/contaminantfocus/pops/POPs-ASTSWMO-
PFCs-2015.pdf.
---------------------------------------------------------------------------
                             impact on dod
    Some of these emerging contaminants--like PFCs--are making 
headlines across the country raising health and safety concerns of 
individuals on and off the military installation and distracting 
installations from their primary mission. In addition, the situations 
represent a potentially significant investment by DoD for corrective 
action.
    The decentralized nature of DoD service organization acquisition 
complicates the implementation of optimum solutions for addressing 
these challenges in a technically as well as economically effective 
manner. Acquisition offices are faced with the need to procure and 
implement appropriate technology solutions and are, all too often, 
promised a solution which does not satisfy the requirements in a 
technically effective or economically efficient manner.
    The need exists for a demonstration of a reliable, technically 
effective, and economically efficient technology solution, made in the 
U.S. by a U.S. manufacturer and from U.S. materials, to support smart 
acquisition action.
                             moving forward
    To support optimal acquisition initiatives related to technically 
effective and economically efficient solutions for PFC water 
contamination, a demonstration project is appropriate to address the 
requirements across all DoD service organizations (Air Force, Army, 
Marine Corps, and Navy) at sites across the U.S. One of the 
technologies that has emerged as technically effective and economical 
is Granular Activated Carbon (GAC). This technology is being used at a 
number of DoD installations to address the PFC contamination issues and 
Calgon Carbon has been a leading provider of those GAC solutions for 
DoD, municipalities, and manufacturing companies for more than 15 
years. Calgon Carbon is the world's largest manufacturer of GAC and all 
of those materials used for PFC applications are manufactured in the 
U.S.--at plants in Kentucky and Mississippi.
    Calgon Carbon manufacturers more than 100 different GAC products--
each focused toward a particular end use application. Since not all GAC 
products are the same, the selection of the proper GAC product is 
critical to achieve the desired technical and economic benefit. This 
has been determined for PFC water contamination and we continue to 
conduct research on how to improve and optimize our products for DoD 
benefit.
    However, the challenge to DoD acquisition offices is exacerbated by 
the fact that, while there is high quality and effective GAC products 
manufactured and available from Calgon Carbon and two additional U.S. 
based manufacturers, the U.S. market (and other world markets) are 
flooded with low quality GAC materials available from Chinese and other 
Southeast Asia nations. In many instances, these materials do not work 
in PFC applications. In fact, the U.S. Internal Trade Commission has 
imposed a tariff on Chinese manufactured GAC because of their unfair 
trade practices in the U.S.--but unscrupulous vendors are circumventing 
the tariff.
    The need exists for a demonstration of a reliable, technically 
effective, and economically efficient technology solution, made in the 
U.S. by a U.S. manufacturer and from U.S. materials, to support smart 
acquisition action.
    A demonstration of U.S. produced GAC products (using U.S. based raw 
materials) for the removal of PFC, and other chemical contaminants, 
from ground water and drinking water impacting the environmental and 
human health associated with DoD facilities across the U.S. would 
advance DoD interests and optimize its technical approach and economic 
investment. The results of the demonstration will allow for more 
accurate budgeting and provide the rational for a more proactive 
approach across DoD to implement technologies to address the PFC 
challenge.
    Such a demonstration would address:
  --removal of PFCs using U.S. produced GAC from groundwater and 
        drinking water;
  --effectiveness of U.S. produced GAC across DoD service organizations 
        as well as across various site conditions throughout the U.S.;
  --capacity to deliver fully operable systems to support the DoD 
        mission;
  --breadth and depth of technical staff to support DoD operational 
        needs.
    Chairman Cochran and Ranking Member Durbin, we greatly appreciate 
the opportunity to provide this input and stand ready to answer any of 
your questions and to move deliberately on our recommendation.

    [This statement was submitted by John W. (Jack) Adams, Director of 
Government Affairs, Calgon Carbon Corporation.]
                                 ______
                                 
   Prepared Statement of the Coalition for National Security Research
    Chairman Cochran, Ranking Member Durbin, and distinguished Members 
of the subcommittee, thank you for the opportunity to submit outside 
witness testimony as you begin to craft the fiscal year 2018 Defense 
Appropriations bill. On behalf of the Coalition for National Security 
Research (CNSR), we respectfully request at least $2.3 billion for the 
Defense basic research program elements (PE), $14.5 billion for the 
Defense Science & Technology (S&T) program, $3 billion for the Defense 
Advanced Research Projects Agency (DARPA), and $1.3 billion for the 
Peer Reviewed Medical Research Programs among other defense medical 
research programs as outlined in this testimony. Throughout this 
statement you will find charts detailing specific recommendations for 
CNSR's priority PEs for fiscal year 2018.
    CNSR is a broad-based alliance of nearly 90 research organizations 
including the nation's top research universities and institutes, 
scientific and professional organizations, and non-profits committed to 
advocating for a strong Defense S&T enterprise. Based on the most 
recent data available, coalition members performed more than $4.7 
billion in Department of Defense (DoD) sponsored scientific research 
and technology development. Broadly, colleges and universities 
performed 23 percent of all DoD sponsored scientific research including 
nearly 50 percent of all DoD sponsored basic scientific research.
    With the Trump Administration priority of increasing defense 
spending to help rebuild and restore the U.S. military, most people 
naturally believe the funding is necessary for building weapons systems 
and platforms, such as aircraft carriers, fighter planes and providing 
our military with the necessary equipment to be the world's most 
dominate fighting force. While each of these activities is vitally 
important, we urge the subcommittee to continue to support funding for 
the Defense scientific research and development that underpins these 
aircraft carriers, fighter planes and our military's equipment but just 
as important provide for research and discoveries that will enable the 
warfighter for 2030 and beyond where he/she will face threats that we 
can only fear today.
    Our fiscal year 2018 funding recommendations stem from Innovation: 
An American Imperative (Innovation Imperative), a statement signed by 
the CEOs of Northrop Grumman, Lockheed Martin, Boeing, Microsoft, and 
endorsed by over 500 other leading organizations from industry, 
research universities, and science and engineering organizations. 
Specifically, the Innovation Imperative urges Congress to end 
sequestration and provide steady and sustained growth in funding of at 
least 4 percent for basic scientific research at numerous agencies, 
including the DoD. As a cosigner of the Innovation Imperative, CNSR 
believes that if the U.S. is to maintain its technological superiority, 
we must prioritize Federal scientific research investments and support 
policies that promote innovation. With countries like China more than 
tripling their spending on research and development over the past 17 
years, now more than ever we need to support basic scientific research 
to enable discoveries and innovations that will provide the necessary 
military capabilities of tomorrow and help offset any technological 
innovations made by competitor nations. It is vital to our national 
security that the United States maintains its technical superiority; 
investing in Defense basic research and Defense S&T now will ensure our 
national security well into the future.
               defense basic research pe recommendations
    Defense basic research provides the seed corn that enables 
discoveries that have led to paradigm shifts in the military's 
technological capabilities as well as trains our next generation 
science & engineering workforce. Basic scientific research is sometimes 
conducted with no specific technological product in mind, but has still 
led to the development of many tools used by today's warfighters. Night 
vision, lasers, stealth technology, missile defense capabilities, 
unmanned aerial and underwater vehicles, global positioning systems, 
and precision guided munitions all trace their roots to basic Defense 
research, and have helped ensure our national security for decades. We 
cannot underinvest in the long-term basic research that will provide 
the military with the foundation for technologies of tomorrow that will 
ensure our technological and military superiority in the decades ahead.
    While this subcommittee has shown strong support for Defense basic 
research, we remain concerned about overall funding levels. While we 
are appreciative that the fiscal year 2017 Omnibus Appropriations bill 
did not align with the proposed reductions to Defense basic research in 
the fiscal year 2017 budget request, we remain concerned that Defense 
basic research funding has not been trending in a positive direction in 
recent years. If these funding trends continue, we are concerned that 
the Defense research enterprise will be unable to support the 
innovative research that will enable scientific discoveries allowing 
for continued U.S. technological superiority in the future. In 
addition, we are concerned that we will not be able to support the 
world's most productive and innovative workforce if Defense basic 
research funding continues to decline as basic research continuously 
attracts the best and brightest minds.
    Making significant breakthroughs in basic scientific research 
requires sustained long-term growth in funding that keeps pace with 
inflation and other cost-driving factors. For two of DoD's key basic 
research programs, we are seeing evidence of flat and declining 
support. Since fiscal year 2014, the Multidisciplinary University 
Research Initiative (MURI) program has only been able to support 
slightly over 20 projects on an annual basis. Each year, there are 
roughly between 50 and 60 proposals that go unfunded. Additionally, 
fiscal year 2017 awarded funding declined by 2.5 percent from fiscal 
year 2014 and saw a decrease in university participation of 
approximately 16 percent. The MURI program is responsible for 
sponsoring research that led to the foundations in multidisciplinary 
research, such as artificial intelligence, created new possibilities 
for nano-manufacturing, and the software that formed the basis of 
computer-aided control of unmanned systems or military drones. From our 
perspective, underfunding this program could result in the military 
technologies of tomorrow being discovered by other nations willing to 
invest in fundamental scientific research.
    Additionally, the Defense University Research Instrumentation 
Program (DURIP) sponsors the acquisition of state of the art equipment 
needed to support cutting edge defense research to enable discoveries 
for DoD technologies. Over the past three fiscal years, there has been 
a steady decline in support for DURIP. Awarded funding has declined by 
more than 44 percent from fiscal year 2015 to fiscal year 2017. Over 
the same time period, the number of researchers funded has dropped by 
more than 65 investigators and the number of institutions participating 
in the program has been reduced by more than 32 percent. DoD relies on 
colleges and universities to perform nearly 50 percent of its sponsored 
basic scientific research. Given the nature of DoD research, unless 
there is sufficient support provided to acquire the necessary equipment 
to conduct DoD-needed scientific research, we are potentially 
jeopardizing future scientific discoveries that will ensure U.S. 
military technical superiority in the decades ahead.
    We offer the following recommendations for the key Defense basic 
research PEs that serve as the foundation of the innovation pipeline.


                                                [$ in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal Year
                                                              --------------------------------------------------
    Agency/Account              Program Element (PE)                                                  2018
                                                                2016 Enacted    2017 Enacted     Recommendation
----------------------------------------------------------------------------------------------------------------
         Army RDT&E               Defense Research Sciences          279,118         293,116          304,841
         Army RDT&E         University Research Initiatives           72,603          69,166           71,933
         Army RDT&E        University and Industry Research          104,340         112,280          116,771
                                                           Centers
         Navy RDT&E         University Research Initiatives          146,196         121,714          146,196
         Navy RDT&E               Defense Research Sciences          506,553         422,748          506,553
    Air Force RDT&E               Defense Research Sciences          374,721         380,812          396,044
    Air Force RDT&E         University Research Initiatives          141,754         150,044          156,046
    Air Force RDT&E    High Energy Laser Research Initiatives         13,778          14,168           14,735
 Defense-Wide RDT&E         DTRA Basic Research Initiatives           38,436          35,436           36,853
 Defense-Wide RDT&E              Basic Research Initiatives           71,940          68,154           70,880
 Defense-Wide RDT&E      National Defense Education Program           54,355          79,345           82,519
----------------------------------------------------------------------------------------------------------------

    We would like to mention specific concerns with reductions in 
funding for the Navy's basic research programs. The fiscal year 2017 
Omnibus Appropriations bill reduced Navy basic research funding by more 
than 16 percent or $108 million from fiscal year 2016 enacted. Navy 
basic research funding provided in fiscal year 2017 is below levels 
appropriated in fiscal year 2010 enacted. This reduction came despite 
increases in the basic research accounts for the Army (+3.8 percent), 
Air Force (+2.8 percent) and Defense-Wide (+6.8 percent).
    Specifically, the fiscal year 2017 Omnibus funds the Navy's 
University Research Initiatives program at levels below fiscal year 
2012 enacted. This will limit the program's flexibility in supporting 
high-value scientific research of importance to the Navy. In addition, 
the Navy's Defense Research Sciences program is funded below fiscal 
year 2011 levels in the fiscal year 2017 Omnibus and reduced by more 
than $83 million relative to fiscal year 2016 enacted. These reductions 
could result between 160 and 500 scientific research projects not being 
funded. This will likely impact research in key areas such as unmanned 
air vehicles, environmental quality, propulsion hydromechanics, power 
generation, human systems, bioinspired autonomous and surveillance 
systems, casualty care and management, and casualty prevention. 
Furthermore, the Navy may have to reduce its STEM activities, sponsor 
fewer graduate fellowships at HBCUs and decrease support for the Young 
Investigator Program.
    Before new technologies can be developed, new knowledge must be 
created. This requires sustained investment across scientific 
disciplines to foster the internal (laboratory) and external (academic 
and industry) workforce and infrastructure that can anticipate and 
support the development of disruptive technologies while also ensuring 
superior knowledge of the battlespace environment, both above and below 
the ocean surface.
    With much of the world's population living on or near the coast, 90 
percent of global trade carried by ships, increasing access to the 
Arctic Ocean, a rapidly changing ocean environment --warming and 
changing circulation and weather patterns-- and new anti-access, area 
denial challenges in critical regions, the need to advance and protect 
US maritime superiority is clear. We must ensure the Navy has the 
resources to support the necessary basic research required to develop 
the technologies that will help ensure the U.S. maintains its 
technological superiority in the seas.
            applied research and defense s&t recommendations
    Fundamental scientific research is just the first step in creating 
new military technologies. Researchers and scientists must apply the 
fundamental knowledge learned through basic research in order to solve 
military problems and develop the systems and components for potential 
solutions. The private sector is unable to assume the risk of applying 
fundamental knowledge to field the military technologies of tomorrow. 
In order to ensure that discoveries made through basic research are 
translated into practical military applications, we offer the following 
recommendations for our priority applied research PEs and overall S&T.


                                                [$ in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                                                                   ---------------------------------------------
   Agency/Account                 Program Element (PE)                  2016          2017            2018
                                                                       Enacted      Enacted      Recommendation
----------------------------------------------------------------------------------------------------------------
        Army RDT&E                           Materials Technology         68,314       82,533    General Support
        Army RDT&E           Sensors and Electronic Survivability         58,374       51,109    General Support
        Army RDT&E                    Advanced Weapons Technology         38,028       53,803    General Support
        Army RDT&E                                      Advanced Concepts 27,862mulatio30,688    General Support
        Army RDT&E           Human Factors Engineering Technology         23,681       23,671    General Support
        Army RDT&E                                               Computer 12,656ftware 13,811logyGeneral Support
        Army RDT&E                              High Performance Computin222,159nizati222,190    General Support
        Navy RDT&E                                        Marine Corps Lan51,708e Techn69,765    General Support
        Navy RDT&E                                               Common Pi42,551Applied41,185rch General Support
        Navy RDT&E        Warfighter Sustainment Applied Research         45,056       50,467    General Support
        Navy RDT&E       Electromagnetic Systems Applied Research        115,051      120,941    General Support
        Navy RDT&E        Ocean Warfighting Environmental Applied         72,252       81,618    General Support
                                                         Research
        Navy RDT&E                                  Future Naval Capabili179,686plied 157,103h   General Support
        Navy RDT&E               Manufacturing Technology Program         57,074       56,712    General Support
        Navy RDT&E                  Advanced Undersea Prototyping            N/A       59,479    General Support
   Air Force RDT&E                                      Materials        133,734      159,152    General Support
   Air Force RDT&E           Human Effectiveness Applied Research        110,530      111,647    General Support
   Air Force RDT&E                              Aerospace Sensors        152,291      162,674    General Support
   Air Force RDT&E                     Directed Energy Technology        115,604      127,163    General Support
   Air Force RDT&E      Dominant Information Sciences and Methods        169,409      166,650    General Support
   Air Force RDT&E                     High Energy Laser Research         41,855       42,300    General Support
Defense-Wide RDT&E                                               Cyber Sec13,701Researc12,183    General Support
Defense-Wide RDT&E         Defense-Wide Manufacturing S&T Program        156,743      158,398    General Support
Defense-Wide RDT&E             Engineering Science and Technology         18,341       22,659    General Support
                --   Overall Defense Science & Technology Program     13,250,806   14,011,229         14,571,678
----------------------------------------------------------------------------------------------------------------

    The coalition would like to specifically highlight its support for 
the Defense-Wide Manufacturing Science and Technology PE, which 
provides resources for DoD's contribution to the Manufacturing USA 
Network. The Network acts as a catalyst to spur private investment in 
our national security technology. In fact, every Federal dollar 
invested in the Manufacturing USA Network so far has spurred $2.05 of 
private sector investment into technologies to further our national 
security. Initiatives such as Manufacturing USA allow the Federal 
Government to leverage its partnerships with industry to enable 
innovation throughout the entire manufacturing ecosystem, ensuring the 
U.S. is able to domestically manufacture the world's most respected and 
capable weapons systems, such as the F-35 fighter jet, the M1-A2 tank, 
and the Ohio Class submarine, while also securing our economic 
prosperity.
                          darpa recommendation
    DARPA's ability to create truly revolutionary new capabilities is 
well documented. The Internet, stealth technology, nearly all the 
technologies found in mobile phones and more recently an upper-limb 
prosthesis for military amputees inspired by the limb that Luke 
Skywalker wore in the Star Wars films. The U.S. needs organizations 
like DARPA that specialize in undertaking high-risk, high-reward 
research and development to create game-changing technologies. DARPA's 
unique research model helps ensure that we remain ahead of our 
adversaries.
    We recommend a funding level of $3 billion for DARPA in fiscal year 
2018.
                defense medical research recommendations
    In order to maintain a strong military, the U.S. must have healthy 
families and soldiers. It is imperative for DoD to contribute to curing 
diseases that affect not only men and women in the military, but also 
the public since we have an all-volunteer force. Defense medical 
research programs help ensure the United States has the medical 
technologies necessary to enable military readiness and serve those who 
have been wounded on the battlefield. Developments in battlefield 
medicine also contribute to significant advances which benefit civilian 
trauma-related medical practice, such as regenerative medicines, 
vaccine developments, battlefield dressings, and one-handed 
tourniquets. We offer the following recommendations for CNSR priority 
Defense medical research PEs.


                                                [$ in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                                                                   ---------------------------------------------
   Agency/Account                 Program Element (PE)                  2016          2017            2018
                                                                       Enacted      Enacted      Recommendation
----------------------------------------------------------------------------------------------------------------
        Army RDT&E                             Medical Technology         76,853       79,111             82,275
        Army RDT&E                    Medical Advanced Technology        108,584      107,365            111,660
        Army RDT&E           Medical Systems Advanced Development         31,962       54,120             56,285
         DHP RDT&E     Research, Development, Test and Evaluation         10,996        9,097              9,461
                                                         Research
         DHP RDT&E                        Exploratory Development         59,471       58,517             60,858
         DHP RDT&E   Undistributed Medical Research/Peer-Reviewed/     1,150,800    1,279,200          1,330,368
                                                                 CDMRPs
----------------------------------------------------------------------------------------------------------------

    Again, thank you for allow us to submit outside testimony as you 
begin developing the fiscal year 2018 Defense Appropriations bill. 
Please do not hesitate to contact us if we can be of any assistance 
during the fiscal year 2018 appropriations process.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership (COL), I 
appreciate the opportunity to share our funding priorities for the 
fiscal 2018 Defense Appropriations Act. COL represents the nation's 
leading ocean science, technology, and education institutions, with the 
mission to shape the future of ocean science. Ocean science strengthens 
our national security, supports a safe and efficient marine 
transportation system, underpins our economy, and furthers 
understanding of complex ocean and coastal processes important to our 
everyday lives--today and tomorrow. Aligning with like-minded security 
science organizations and coalitions, we respectfully request the 
Subcommittee provide no less than $2.3 billion for the Defense basic 
research program elements, $14.5 billion for the Defense Science & 
Technology program, and $3 billion for the Defense Advanced Research 
Projects Agency (DARPA). To ensure our nation can maintain maritime 
battlespace superiority in an increasingly unstable world, COL 
respectfully requests the subcommittee oppose the significant cuts in 
funding proposed in the President's fiscal year 2018 budget request and 
provide the Navy with no less than the science and technology funding 
levels appropriated in the fiscal year 2016 omnibus spending bill, 
which were $671 million for basic research (6.1), $967 million for 
applied research (6.2), and $697 million for advanced technology 
development (6.3). Ensuring robust and sustained funding for Navy 
science and technology programs and partnerships (which represent a 
small fraction of the overall Navy budget) is key to ensuring the 
culture of innovation and initiative that DoD has prioritized 
(internally as well as with its non-Federal research partners). It is 
also needed to stem the erosion of the U.S. competitive advantage in 
ocean sciences and understanding and exploiting the ocean environment 
(USN Task Force Ocean Problem Statement).
    Federal investment is required to meet the endstate goals of the 
U.S. Navy's Task Force Ocean:
  --Navy-relevant ocean science infrastructure in the U.S. remains 
        measurably ahead of our competitors
  --The U.S. Navy's capability and capacity to understand and exploit 
        the ocean environment remain measurably ahead of our 
        competitors
  --The U.S. Navy's capability and capacity to exploit the full range 
        of science and technology development in the U.S. advance 
        through increased permeability between the Navy and government, 
        academia, and the private sector
    The fiscal year 2017 omnibus appropriations bill cut Navy's basic 
research funding more than 16 percent, below the fiscal year 2010 
enacted funding level. The fiscal year 2017 omnibus funded the Navy's 
University Research Initiative below fiscal year 2012 enacted funding, 
and Navy's Defense Research Sciences fiscal year 2017 funding fell 
below fiscal year 2011 levels ($83 million cut from fiscal year 2016 
funding). Reductions such as these could mean 160-500 research project 
not receiving funding, effectively limiting the Navy's ability to 
``exploit the full range of science and technology development'' 
occurring through partnerships with academia. Additional to losses in 
critical research areas like observations and modelling, unmanned 
vehicles, power generation, propulsion hydromechanics, bioinspired 
autonomous and surveillance systems, environmental quality, casualty 
care and management, and casualty prevention, the Navy may be forced to 
reduce its STEM activities. Whether decreasing support for the Young 
Investigator Program or sponsoring fewer graduate fellowships at HBCUs 
and HSIs, this is a major loss to the human capital and tactical 
workforce development identified as a key issue by Navy's Task Force 
Ocean.
An Ocean Planet; A Maritime Nation
    Earth is an ocean planet, with saltwater covering more than 71 
percent of its surface. The ocean sustains life itself--providing the 
oxygen we breathe, the food we eat, water for drinking and farming, 
energy to run our societies, and even the warmth that has allowed 
humanity to thrive. One half of the oxygen on Earth comes from marine 
phytoplankton. Seafood contributes 15 percent of animal protein for 
three billion people (another billion rely on fisheries for their main 
source of protein). The ocean holds 97 percent of Earth's water, which 
then becomes freshwater for drinking, farming, and manufacturing. 
Roughly 80 percent of global energy comes from petroleum formed in 
ancient seas. Around the world, 350 million jobs are linked to the 
ocean, and coastal zones contribute $26.8 trillion to the global 
economy each year.
    The U.S. is a maritime nation, with more ocean area in our 
Exclusive Economic Zone than in our terrestrial 50 States combined. 
From the very beginning, the U.S. has turned to the sea for protection, 
exploration, lifestyle, economic security, food, recreation, and 
energy. Our country is protected by a Navy battle force of 275 ships, 
118 Army watercrafts, 245 Coast Guard cutters, and over 80 coastal 
military bases. The ocean is an economic driver to more than three 
million Americans who work in ocean and coastal industries (which are 
worth $359 billion annually). The ocean's role in food security is 
critical--it provides 20 percent of the animal protein we depend on for 
food, provides fishmeal that fertilizes the nation's crops, and is the 
major driver of the weather and water cycle that bring warmth and water 
to inland farms. Our nation's competitive security advantage doesn't 
rest solely on the best charts and finest navigation technologies but 
also upon the ability to predict and plan for threats on the horizon. 
Changes in ocean and atmospheric systems can quickly snowball into 
disturbances in food supplies, human population migrations, and 
geopolitical instability.
Ocean Science: Vital To The Nation's Security
    Ocean science and technology provide the nation with a knowledge 
advantage against myriad maritime threats we face, both now and in the 
future. Basic ocean research forms the critical foundation needed to 
ensure continuity of our superior knowledge of the ocean, which in turn 
generates warfare advantage and ensures homeland security. However, the 
Navy's competitive advantage over key military competitors in 
understanding and exploiting the ocean environment has diminished and 
can only be reestablished through investments in science and technology 
research across all agencies. Asian and European ocean education and 
research enterprises have, in many cases, matched or exceeded that in 
the U.S. Admiral James Watkins, former Chief of Naval Operations, often 
remarked that oceanography was a key determinant in the U.S. Cold War 
``victory,'' due to the knowledge advantage provided to our forward 
deployed maritime forces, especially our submarines. We are firmly 
convinced that ocean science and technology today can and must provide 
us with the same knowledge advantage against the myriad maritime 
threats we face today.
    The academic research community has enjoyed a long and productive 
partnership with the U.S. Navy in helping to ensure maritime military 
readiness, domain awareness, and warfighting advantage. This success 
has its foundation in sustained investment in supporting science and 
technology programs implemented through the 6.1, 6.2, and 6.3 programs. 
The 3rd Offset Strategy highlighted by Secretary of Defense Carter and 
other service leaders in congressional testimony acknowledges the 
challenge to U.S. military superiority through increasing competition 
in science and technology by other nations. Investments in science and 
technology now are crucial to ensuring future capabilities, which take 
time and sustained funding to nurture through the research and 
development process and to integrate into the operational battlespace. 
A good example of this is the continued acceleration of Autonomous 
Undersea Vehicles (AUV) and other ground-breaking submarine technology 
usage in the undersea environment by the Navy and Department of Defense 
(DoD). The impact of the ocean environment on these systems is even 
more pronounced than it was for the manned and tethered systems of the 
past. Acoustic advantage; endurance and energy consumption; autonomy; 
and effective command, control, and communications for AUV are heavily 
influenced by ocean conditions. These must be measured, modeled, and 
accurately predicted to ensure undersea warfare advantage is maintained 
against a global undersea threat that is ever-growing in complexity and 
proliferation. Basic ocean research provides the critical foundation to 
ensure continuity of our undersea knowledge superiority that generates 
warfare advantage. Simply put, our undersea forces must be able to win 
every ``away game,'' and we therefore must be able to exploit the ocean 
environment to ensure ``home field advantage'' at those ``away games.''
Intelligence Advantage Through Ocean Knowledge--Understanding, Modeling 
        and Predicting
    As defined by the Navy, Maritime Domain Awareness (MDA) is the 
``effective understanding of anything associated with the maritime 
domain that could impact the security, safety, economy, or environment 
of the United States.'' \1\ MDA is comprised of situational awareness 
(observable and known) and threat awareness (anticipated or 
suspected)--a mix of operational intelligence and environmental data 
and information. Whether it is basic oceanographic research or ocean 
modelling, a better understanding of the ocean system significantly 
enhances MDA. The security advantage gained through increased ocean 
knowledge is not limited to the warfighting arena. Beyond situational 
awareness, contributions of forward-deployed naval forces and 
information and intelligence capacities of Navy and the intelligence 
community (e.g., CIA, NSA, DIA, NGA) benefit from basic and applied 
research programs, as well as partnerships with academic institutions 
supporting robust ocean observations and monitoring to enhance threat 
awareness. Understanding the ocean system and modelling scenarios form 
the foundation of trustworthy predictions, which in turn improve our 
nation's security advantage by moving us along the spectrum from 
situational awareness to threat awareness and ultimately to threat 
prediction.
---------------------------------------------------------------------------
    \1\ https://www.dhs.gov/sites/default/files/publications/
HSPD_MDAPlan_0.pdf.
---------------------------------------------------------------------------
    The Department of Defense Climate Change Adaptation Roadmap \2\ and 
both of the most recent Quadrennial Defense Reviews \3,4\ have 
recognized that changing climate is a threat to national security, and 
its effects must be assessed and addressed through adaptation. The 
melting of sea ice and permafrost, acidification of the seas, and decay 
of large ice sheets are just some of the ways the polar regions have 
responded to changing ocean and atmospheric conditions. Half of the 
world's population lives within 60 km of the ocean, 75 percent of all 
large cities are on the coast,\5\ and the U.S. coastal population is 
expected to increase by an additional 10 million people by 2020.\6\ As 
many as 650 million people across the world are at risk from rising 
seas by the end of the century.\7\ Just this year, we've begun to see a 
slowdown of ocean circulation in the Atlantic,\8\ which is symptomatic 
of broader changes in global ocean circulation patterns that directly 
impact military operations (e.g., anti-submarine warfare) while also 
affecting storm and drought intensity (and the concomitant humanitarian 
response implications) and the chronic -but significant- concerns 
surrounding the rate of sea level rise on naval installations and 
facilities.
---------------------------------------------------------------------------
    \2\ http://www.acq.osd.mil/ie/download/CCARprint.pdf.
    \3\ http://www.defense.gov/Portals/1/features/defenseReviews/QDR/
QDR_as_of_29JAN10_
1600.pdf.
    \4\ http://archive.defense.gov/pubs/
2014_Quadrennial_Defense_Review.pdf.
    \5\ http://www.unep.org/urban_environment/issues/coastal_zones.asp.
    \6\ http://oceanservice.noaa.gov/facts/population.html.
    \7\ http://www.climatecentral.org/news/new-analysis-global-
exposure-to-sea-level-rise-flooding-18066.
    \8\ Rahmstorf, S., et al. 2015. Exceptional twentieth-century 
slowdown in Atlantic Ocean overturning circulation. Nature Clim. Change 
5, 475--480 (2015).
---------------------------------------------------------------------------
    Through threatened freshwater sources (due to saltwater intrusion), 
loss of protein sources, submerged land, and increases in disease and 
other human health concerns,\9\ human populations living within coastal 
zones across the globe are the groups to be impacted most directly by a 
changing ocean. Whether abroad or at home, displacement or abandonment, 
mass migrations, and conflict over resources are real security threats 
both on the coasts and inland.
---------------------------------------------------------------------------
    \9\ http://widenerlawreview.org/files/2010/04/07-KUNDIS-CRAIG-
Final.pdf.
---------------------------------------------------------------------------
Navigating Changing Ocean Conditions--Sensing and Observing
    The Navy and DoD have a distinguished history of fostering the 
science and technology that has been responsible for U.S. military 
success and superiority. There is growing concern that this superiority 
is being challenged by a significant increase in investment by our 
rivals, while funding support for science and technology within DoD and 
the Navy has languished. This is particularly apparent in the proposed 
reduction in the Navy 6.2 and 6.3 funding included in the president's 
budget request, which would result in an approximately 10-20 percent 
decrease in research and technology development resources.
    With the ocean providing 20 percent of the animal protein in the 
human diet \10\ and 24 percent of global land degrading (25 percent 
rangeland, 20 percent cropland),\11\ it is understandable that illegal, 
unregulated and unreported fishing (IUU) and desertification are not 
only food security issues but ultimately ones of national security. 
Changes in ocean conditions directly associated with access in the 
Arctic lead to expanded navigation and commerce in the region (e.g., 
shipping, fishing, oil and gas exploration, bioprospecting, mining) and 
could result in disputes amongst nations or accidents requiring search 
and rescue or other response.
---------------------------------------------------------------------------
    \10\ http://www.education.noaa.gov/Ocean_and_Coasts/.
    \11\ http://www.un.org/en/events/desertification_decade/
value.shtml.
---------------------------------------------------------------------------
    Whether considering ocean conditions to better understand drought 
forecasts or to model changes in fish distributions, data and 
information from the sea strengthen the Navy's awareness of conflict 
catalysts. However, these data and information must be gathered. Ocean 
observation platforms and sensor technology advancement allow for real-
time characterization of ocean conditions as well as necessary data to 
assess trends. The basic and applied research lines, robust 
partnerships and collaborations with ocean science and technology 
institutions, and in-house surveying capabilities all support the 
increase of ocean knowledge for our nation's security advantage.
    Given the critical importance of ocean knowledge in both the 
warfighting arena and in threat awareness, the ocean science community 
greatly appreciates the subcommittee's continuing recognition of the 
importance of the Auxiliary General Oceanographic Research (AGOR) 
research vessels fleet. COL strongly supports inclusion of adequate 
funds in the 6.2 account to complete the Service Life Extension Program 
of the AGOR-23 class, which adds 10-15 years of life to the vessels and 
ensures the availability of unique platforms capable of performing 
multidisciplinary, high endurance missions that support Navy 
information needs around the globe. There is also concern that the Navy 
does not have a long-term plan to recapitalize its operational 
oceanographic survey ship fleet. The T-AGS 60 Pathfinder class will 
begin to exceed their planned life expectancy within the next decade, 
and it is imperative that replacement ships be included in the Navy's 
long-term ship building plan.
Long-term Commitment to People, Platforms, and Partnerships--Human 
        Capital and Tactical Workforce
    It is hard to overemphasize the significant advantages that have 
resulted from Navy support for basic research, including highly trained 
people, cutting-edge technology, and innovative ideas. The advantage 
and benefits that have accrued to DoD and the Navy cannot be attributed 
solely to the amount of investment; equally important is the Office of 
Naval Research's culture that understood the importance of providing 
sustained support for technology development and the cultivation of 
researchers, including early career and established scientists 
(internally and among its academic partners). The cultivation of people 
and technology in support of national security priorities is well 
beyond the mission and role of other Federal agencies supporting ocean 
science, such as the National Science Foundation and the National 
Oceanic and Atmospheric Administration. For example, the U.S. Navy's 
competitive advantage in undersea warfare research relies on the 
ability to execute unique data collection systems and sea-going 
expertise. The backbone for these programs is comprised of partnering 
scientists, expert engineers, and technicians with decades of 
experience in executing research at sea.
    It is also important to recognize the important role science and 
technology funding plays in the development of new technology (e.g., 
sensors, platforms, models, data analytics) that are essential to 
helping the Navy meet its mission requirements. Much of the 
oceanographic equipment in use today, for defense and nondefense 
research, observations, and modeling, has resulted from Navy investment 
in its development, as well as its integration to defense and non-
defense at-sea platforms and in research labs through the Defense 
University Research Instrumentation Program. Unfortunately, the level 
of investment in technology development has seriously declined in 
recent years, with greater focus being placed on the transition of 
applied technology into operations. The negative impacts of this shift 
in emphasis and support has been realized as the flow of new 
technologies and their application to Navy mission requirements slows, 
just as the increased investments by rivals begins to bear fruit. Task 
Force Ocean specifically targets ocean related technology development 
through and with the Navy, academia, and the private sector.
    Additional to the technology shortfalls, there is a human capital 
issue. Forty-seven percent of American geoscientists in the private 
sector and 43 percent in the Federal Government are over the age of 55, 
making them likely to retire in the next 10 years.\12\ The Workforce 
Research team at the American Geosciences Institute calculated that 
there will be a shortfall of 135,000 geoscientists in the U.S. 
workforce over the next decade. Specifically Navy-focused, the Navy 
oceanography enterprise has lost more than half of its physicists and 
geophysicists and 12 percent of its physical scientists and 
oceanographers in the last decade alone. In the last 20 years, the 
Naval Research Laboratory has lost approximately 50 percent of is 
acousticians and 13 percent of its oceanographers. We can ill afford to 
have a shortage of these workers, both military and civilian, who are 
vital for the national security community.
---------------------------------------------------------------------------
    \12\ Distribution of Geoscientists, Fedscope, March 2015, https://
www.fedscope.opm.gov/ibmcognos/cgi-bin/cognosisapi.dll.
---------------------------------------------------------------------------
Conclusion
    Ocean science and geosciences writ large impact every American 
every day. Across the nation, across science disciplines, and across 
the Federal family, it is clear that robust and sustained Federal 
investments in ocean and geosciences are key to addressing global and 
national challenges; underpinning new and growing economies while 
maintaining and supporting existing ones; and improving technologies 
that preserve lives and livelihoods, persons, and property. As the 
subcommittee drafts the fiscal year 2018 spending bill, we hope that 
you reflect on the Navy's concern with the erosion of competitive 
advantage in the ocean science and technology arena and the fact that 
the bulk of the intellectual capacity regarding the ocean resides 
within the academic research community. Peer-reviewed extramural 
research is the most efficient and effective vehicle for providing our 
policy makers and our commercial partners with the expertise, 
information, and data necessary to address the emerging challenges 
facing our nation.
    To maintain global stability, it is critically important that the 
nation understands the factors of conflict catalysts. To successfully 
navigate a changing physical, chemical, and biological ocean while 
maintaining geopolitical establishments, the Navy must regain their 
competitive advantage in understanding the ocean and coastal baseline 
conditions, changing conditions, forecasted conditions, vulnerabilities 
of undersea and coastal infrastructure, and the threatened human 
population. The changing climate and ocean systems are altering when 
and where our military may be called to duty, but also how the military 
can respond. Rising sea levels affect amphibious landing opportunities, 
and extreme weather could impact deployment, intelligence, 
surveillance, and reconnaissance capabilities. It is through the robust 
Federal support of the Navy's basic and applied research, maintaining 
superiority in technology development and integration, and through 
collaborative partnerships with ocean science and technology 
institutions that this will happen.
    Mr. Chairman and members of the subcommittee, the ocean science and 
technology community appreciates the support that the subcommittee 
provided for oceanographic research and technology advancement, and we 
hope that you will continue to prioritize science investments to ensure 
the U.S. can maintain its superiority at sea. We greatly appreciate 
your consideration of our recommendations and are available to discuss 
these recommendations with you further at your earliest convenience.
    Below is a list of institutions that are represented by the 
Consortium for Ocean Leadership:

Alabama
Dauphin Island Sea Lab

Alaska
Alaska Ocean Observing System
Arctic Research Consortium of the United States (ARCUS)
North Pacific Research Board
University of Alaska Fairbanks

California
Aquarium of the Pacific
Bodega Marine Laboratory
Esri
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratories
Romberg Tiburon Research Laboratory
Stanford University
Teledyne RD Instruments
U.S. Naval Postgraduate School
University of California, San Diego Scripps Institution of Oceanography
University of California, Santa Barbara
University of California, Santa Cruz
University of Southern California

Colorado
Cooperative Institute for Research in Environmental Sciences

Connecticut
University of Connecticut

Delaware
University of Delaware
Mid-Atlantic Regional Association Coastal Ocean Observing System 
(MARACOOS)

Florida
Earth2Ocean
FAU Harbor Branch Oceanographic Institute
Florida Institute of Oceanography
Mote Marine Laboratory
Nova Southeastern University
University of Florida
University of Miami
University of South Florida

Georgia
Savannah State University
Skidaway Institute of Oceanography, University of Georgia

Hawaii
University of Hawaii

Illinois
John G. Shedd Aquarium

Louisiana
ASV Global, LLC
Louisiana State University
Louisiana Universities Marine Consortium

Maine
Bigelow Laboratory for Ocean Sciences
The IOOS Association
University of Maine

Maryland
Johns Hopkins University Applied Physics Lab
National Aquarium
Severn Marine Technologies, LLC
University of Maryland Center for Environmental Science

Massachusetts
Massachusetts Institute of Technology
University of Massachusetts, Dartmouth
Woods Hole Oceanographic Institution

Michigan
University of Michigan

Mississippi
University of Mississippi
University of Southern Mississippi

New Hampshire
University of New Hampshire

New Jersey
Monmouth University Urban Coast Institute
Rutgers University

New York
Columbia University Lamont-Doherty Earth Observatory
Stony Brook University

North Carolina
Duke University
East Carolina University
North Carolina State University
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington

Oregon
Oregon State University

Pennsylvania
Pennsylvania State University

Rhode Island
University of Rhode Island

South Carolina
South Carolina Sea Grant Consortium
University of South Carolina

Tennessee
Eastman Chemical Company

Texas
Harte Research Institute For Gulf of Mexico Studies
Shell Oil Company
Sonardyne, Inc.
Texas A&M University
University of Texas at Austin

Virginia
College of William & Mary (VIMS)
Institute for Global Environmental Strategies (IGES)
Old Dominion University
Teledyne CARIS
U.S. Arctic Research Commission

Washington
Sea-Bird Scientific
University of Washington

Washington, D.C.
Marine Technology Society (MTS)
National Ocean Industries Association (NOIA)
Southeastern Universities Research Association (SURA)

Wisconsin
University of Wisconsin, Milwaukee School of Freshwater Sciences

Australia
Institute for Marine and Antarctic Studies (IMAS)

Bermuda
Bermuda Institute of Ocean Sciences

Canada
Dalhousie University
University of Victoria Ocean Networks Canada
                      

    [This statement was submitted by RADM Jonathan White, USN (Ret.), 
President and CEO, Consortium for Ocean Leadership.]
                                 ______
                                 
                   Prepared Statement of Galois, Inc.
                             recommendation
_______________________________________________________________________

  --Provide an additional $5 million in RDTE, AF Aerospace Vehicle 
        Technologies (R-1 line 5, PE 0602201F) for Formal Methods 
        implementations in support of Trustworthy Flight Controls and 
        Pilot Vehicle Interface.
_______________________________________________________________________

    Computer programs are based on algorithms, and are usually tested 
to see that they work safely, correctly, and securely by trying many 
data points. However, there is always the possibility that a program 
will malfunction under some untested condition--and testing every 
possible condition is virtually impossible. The resulting malfunctions 
can be as simple as a buffer overflow error, where a program copies a 
little more data than it should and overwrites a small piece of the 
computer's memory. It's a seemingly innocuous error that is hard to 
eliminate but provides an opening for hackers to attack a system. Any 
flaw anywhere in any piece of software can become a security 
vulnerability, and it is time and cost prohibitive to test every 
possible path of every possible input. The National Institute of 
Standards and Technology issued a report to the White House Office of 
Science and Technology Policy in November, 2016 entitled ``Dramatically 
Reducing Software Vulnerabilities'' which states ``In the case of 
typical software, estimates are up to 25 errors per 1000 lines of 
code'' and ``nearly two thirds of vulnerabilities come from simple 
programming errors.''
    Breakthroughs have recently been made in using mathematics and 
logic to verify software. Instead of trying to individually test every 
possible condition, this approach uses a mathematical specification to 
define exactly what a computer program does, and a formal verification 
process to prove beyond a doubt that the program's code perfectly 
achieves that exact specification and only that specification. In the 
NIST report, this is called ``Formal Methods''. Formal methods include 
all software analysis approaches based on mathematics and logic, 
including parsing, type checking, correctness proofs, model-based 
development and correct-by-construction. Formal methods help software 
developers achieve greater assurance that entire classes of 
vulnerabilities are absent and also reduce the need for unpredictable 
cycles of expensive testing and bug fixing. Other advanced methods 
being explored by the Air Force include system level security, additive 
software analysis, domain specific software development frameworks, 
moving target defenses, and automatic software diversity.
    The Aerospace Systems Autonomous Controls Branch of the Air Force 
Research Laboratory (AFRL) at Wright-Patterson Air Force Base in 
Dayton, Ohio is a government leader in developing and applying formal 
methods technology and tools for aerospace applications. AFRL is 
investing over $2.5 million in fiscal year 2017 to accelerate formal 
methods implementations in support of key Air Force programs. An 
additional $5 million is urgently needed in fiscal year 2018 to expand 
this work on identifying software vulnerabilities, retrofitting 
existing safety-critical systems, and developing new trustworthy 
systems applicable to remotely piloted aircraft, hypersonic aircraft, 
and extended-life legacy aircraft. This request is for a generic 
program increase to an existing, budgeted Air Force project, for which 
any industry contracts will be competitively awarded.
    Thank you for the opportunity to submit this testimony for the 
record.

    [This statement was submitted by Dr. Robert Wiltbank, Chief 
Executive Officer, Galois, Inc.]
                                 ______
                                 
     Prepared Statement of the Human Factors and Ergonomics Society
    On behalf of the Human Factors and Ergonomics Society (HFES), we 
are pleased to provide this written testimony to the Senate 
Subcommittee on Defense and Related Agencies for the official record. 
HFES urges the Subcommittee to provide robust funding levels for 
Research, Development, Test, and Evaluation (RDT&E) at the Department 
of Defense (DoD) in the fiscal year 2018 appropriations process. 
Specifically, we urge the Subcommittee to direct DoD to identify 
opportunities to transition human performance research to defense 
acquisition programs to reduce cost, strengths force protection, reduce 
potential for re-engineering, and enhance training.
    HFES and its members recognize and appreciate the challenging 
fiscal environment in which we as a nation currently find ourselves; 
however, we believe strongly that investment in scientific research 
serves as an important driver for innovation and the economy and for 
maintaining American global competitiveness. We thank the Subcommittee 
for its longtime recognition of the value of scientific and engineering 
research and its contribution to innovation in the U.S.
           the value of human factors and ergonomics science
    HFES is a multidisciplinary professional association with over 
4,500 individual members worldwide, including psychologists and other 
scientists, engineers, and designers, all with a common interest in 
designing safe and effective systems and equipment that maximize and 
adapt to human capabilities.
    For over 50 years, the U.S. Federal Government has funded 
scientists and engineers to explore and better understand the 
relationship between humans, technology, and the environment. 
Originally stemming from urgent needs to improve the performance of 
humans using complex systems such as aircraft during World War II, the 
field of human factors and ergonomics (HF/E) works to develop safe, 
effective, and practical human use of technology. HF/E does this by 
developing scientific approaches for understanding this complex 
interface, also known as ``human-systems integration.'' Today, HF/E is 
applied to fields as diverse as transportation, architecture, 
environmental design, consumer products, electronics and computers, 
energy systems, medical devices, manufacturing, office automation, 
organizational design and management, aging, farming, health, sports 
and recreation, oil field operations, mining, forensics, and education.
    With increasing reliance by Federal agencies and the private sector 
on technology-aided decisionmaking, HF/E is vital to effectively 
achieving our national objectives. While a large proportion of HF/E 
research exists at the intersection of science and practice--that is, 
HF/E is often viewed more at the ``applied'' end of the science 
continuum--the field also contributes to advancing ``fundamental'' 
scientific understanding of the interface between human decisionmaking, 
engineering, design, technology, and the world around us. The reach of 
HF/E is profound, touching nearly all aspects of human life from the 
healthcare sector, to the ways we travel, to the hand-held devices we 
use every day.
       human factors and ergonomics at the department of defense
    HFES and its members believe strongly that Federal investment in 
DoD will have a direct and positive impact on the U.S. economy, 
national security, and the safety and well-being of Americans. It is 
for these reasons that HFES supports robust funding for DoD, especially 
for the Army Human Factors Engineering Technology applied research 
program and the Navy Personnel, Training, Simulation, and Human Factors 
program within Engineering and Manufacturing Development to encourage 
further advancements in the fields of technology, safety, and human 
factors, among others.
    DoD has openly acknowledged the significance of human factors 
research and the potential for interagency collaboration through the 
creation of the Department of Defense Human Factors Engineering 
Technical Group (DoD HFE TAG). Composed of representatives from DoD, 
National Aeronautical and Space Association (NASA), Federal Aviation 
Administration (FAA), and the Department of Homeland Security (DHS), 
the scope of this working group is broad and its benefits are diverse.
    In particular, the goals of DoD HFE TAG are to:
  --Provide a mechanism for the timely exchange of technical 
        information in the development and application of human factors 
        engineering.
  --Enhance coordination among government agencies involved in HF/E 
        technology research, development, and application.
  --Assist in the preparation and coordination of tri-service 
        documents, and sponsor in-depth interaction, which aids in 
        identifying HF/E technical issues and technology gaps.
    This research undoubtedly affects the safety and well-being of 
American citizens and it is for this reason that we request robust 
funding levels for human factors research in DoD in fiscal year 2018.
                               conclusion
    Given DoD's critical role in supporting fundamental research and 
development across defense and engineering disciplines, HFES supports 
robust funding levels for DoD RDT&E programs, especially those that 
specifically fund human factors, in fiscal year 2018 as well as 
improvements to the inclusion of human systems integration in 
acquisition programs. These investments fund important research 
studies, enabling an evidence base, methodology, and measurements for 
improving organizational function, performance, and design across 
sectors and disciplines.
    On behalf of HFES, we would like to thank you for the opportunity 
to provide this testimony. Please do not hesitate to contact us should 
you have any questions about HFES or HF/E research. HFES truly 
appreciates the Subcommittee's long history of support for scientific 
research and innovation.

    [This statement was submitted by Nancy J. Cooke, Ph.D., President, 
and Lynn Strother, Executive Director, Human Factors and Ergonomics 
Society.]
                                 ______
                                 
        Prepared Statement of The Michael J. Fox Foundation for 
                          Parkinson's Research
    The Michael J. Fox Foundation for Parkinson's Research (MJFF) 
appreciates the opportunity to comment on fiscal year 2018 
appropriations for the U.S. Department of Defense. Our comments focus 
on the importance of Federal investment in biomedical research at the 
Congressionally Directed Medical Research Program (CDMRP). MJFF 
supports appropriation of at least $20 million to the CDMRP Parkinson's 
Research Program (PRP), which will go part of the way toward recovering 
money lost since 2010, when the program was funded at $25 million, and 
bring us closer to better treatments and a cure for Parkinson's disease 
(PD).
    As the world's largest nonprofit funder of PD research, MJFF is 
dedicated to accelerating a cure for Parkinson's and developing 
improved therapies for those living with the disease today. In funding 
more than $700 million in PD research to date, the Foundation has 
fundamentally altered the trajectory of progress toward a cure. 
However, MJFF investments are a complement to, rather than a substitute 
for, federally funded research. With critically needed Parkinson's 
breakthroughs on the horizon, robust and reliable Federal funding is 
imperative to drive progress. Currently, there is no therapy to slow, 
stop or reverse the progression of PD. Additionally, existing 
treatments are limited in their abilities to address patients' medical 
needs and remain effective over time.
    An estimated 80,000 veterans and one million people overall live in 
the United States with PD, the second most common neurodegenerative 
disease after Alzheimer's disease. Parkinson's results in an estimated 
annual economic burden of $19.8 to $26.4 billion. Investing in research 
on the front end to develop innovative therapies and cures can lower 
back-end costs. New treatments would relieve the burden on Medicare, 
Medicaid and the Department of Veteran Affairs.
        prp: efforts to prevent and stop parkinson's progression
    Started in 1997, the CDMRP's Parkinson's Research Program aims to 
identify and understand risk factors associated with PD (such as 
chemical exposures, psychological stress and traumatic brain injury) in 
order to prevent or delay the onset of symptoms, as well as advance the 
development of new treatments. The program has granted more than 250 
awards to investigate a variety of mechanisms of and factors 
influencing disease progression.
    In recent years, program funding has significantly decreased (from 
$25 million in fiscal year 2010 to $16 million in fiscal year 2016). 
Reinstating funding at previous budget levels will ensure scientific 
progress of importance to our Nation's service members can continue.
    For example, Parkinson's research has linked certain chemicals to 
the disease. Environmental chemical exposures are a potential health 
hazard to soldiers during deployments and through exposure to military 
materiel such as jet fuel and permethrin-impregnated uniforms. The 
Parkinson's Research Program has supported a range of studies on 
environmental chemical exposures to identify hazards to soldiers and 
the public. DoD-funded studies have found strong associations between 
organochlorine pesticides and neurodegenerative disease. In addition, 
fundamental advances in neurobiology made possible by DoD funding are 
providing new understanding and identifying biological markers to 
evaluate the role of chemical exposures, head injury and chronic 
psychological stress in neurodegenerative disease risk. Understanding 
possible environmental causes of Parkinson's will help the military 
reduce exposure for their soldiers through protective equipment or 
other mitigations and help civilians take action to reduce their risk.
         cdmrp: unique research with reach beyond the military
    The research portfolio supported by the Congressionally Directed 
Medical Research Program fuels scientific discovery by propelling 
exploration of revolutionary ideas and concepts with potential impact 
for support and treatment for members of the military and the greater 
national population. The CDMRP funds highly innovative projects--for 
which support is typically limited or unavailable--from research teams 
at top universities and medical centers.
    It is important to note, as well, Department of Defense (DoD) 
programs neither duplicate nor supplant National Institutes of Health 
(NIH) research programs, but rather enhance those efforts. NIH-funded 
basic research serves as a foundation for groundbreaking, disorder-
targeted research at the DoD. NIH and DoD program officers meet to 
ensure collaboration and prevent duplication.
    The well-executed and efficient programs within the defense health 
research programs demonstrate responsible government stewardship of 
taxpayer dollars and benefit current and former military service 
members, the general patient population and our Nation's economy. DoD's 
biomedical research funding has led to many significant breakthroughs 
and achievements, contributing to national security and the health and 
welfare of U.S. Armed Forces personnel and their dependents.
    Please continue investment in Americans' health and wellbeing by 
allocating $20 million dollars for the PRP in fiscal year 2018 and 
supporting CDMRP programs generally.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society
    Dear Mr. Chairman and Members of the Subcommittee, thank you for 
this opportunity to provide testimony on behalf of the National 
Multiple Sclerosis Society (Society) regarding Department of Defense 
Appropriations for fiscal year 2018 and to discuss the importance of 
Federal research programs that impact those affected by multiple 
sclerosis (MS). As you consider priorities for fiscal year 2018, we 
urge the Subcommittee to provide $10 million in discretionary spending 
for the MS Research Program (MSRP) within the Congressionally Directed 
Medical Research Programs (CDMRP).
    MS is an unpredictable, often disabling disease of the central 
nervous system that interrupts the flow of information within the 
brain, and between the brain and body. Symptoms range from numbness and 
tingling to blindness and paralysis. The progress, severity, and 
specific symptoms of MS in any one person cannot yet be predicted. Most 
people with MS are diagnosed between the ages of 20 and 50, with at 
least two to three times more women than men being diagnosed with the 
disease.
    The Society works to provide solutions to the challenges of 
multiple sclerosis (MS) so that everyone affected by this disease can 
live their best lives. To fulfill this mission, we fund cutting edge 
research, drive change through advocacy, facilitate professional 
education, collaborate with MS organizations around the world, and 
provide services designed to help people affected by MS move their 
lives forward. We see ourselves as a fundamental partner to the U.S. 
government in many critical areas--particular in the field of MS 
research. Last year, we dedicated approximately $40 million in MS 
research that are complementary to research funded by the Federal 
government, including the MSRP within the CDMRP.
    The CDMRP is a peer-reviewed program funded through the Department 
of Defense via the Defense Appropriations Act. Importantly, individual 
programs like the MSRP are funded at the direction of Congress and fill 
research gaps by funding high impact, high-risk and high gain projects 
that other research agencies- like the NIH, may not venture to fund. 
The CDMRPs are distinctive in that they involve active participation of 
people living with the program disease area. These patients and patient 
representatives are highly coveted roles, as they are involved in all 
areas of the program- from establishing the mission/vision of the 
program, to reviewing applications and making recommendations for 
funding, and evaluating the impact of the program. People living with 
MS value these opportunities within the MSRP as a way they can engage 
in the research process. Further, the Society applauds the way MSRP's 
design and believes that it aligns with the direction of patient 
centered drug development and care.
MS and Military Service
    In the United States, there are approximately 32,870 veterans 
living with diagnosed MS. Out of that number, over 11,000 have MS that 
is deemed service-connected, meaning that their MS was incurred or 
aggravated during their military service. Each year, the Veterans 
Health Administration provides care to more than 20,000 veterans living 
with MS.
    MS is considered a presumptive condition and veterans who have 
symptoms of MS in the military or within 7 years after honorable 
discharge are eligible for the service-connected status. An advisory 
committee by the Veterans Administration recently recommended further 
study into the potential link between combat service and increased risk 
of developing MS. As the underlying cause of MS is still unknown, it is 
imperative that the Federal government fund basic research to help 
answer fundamental question, and research to help improve the lives of 
those serving in the military who may be called upon to service in 
areas and environments that may increase the risk of developing 
diseases like MS later in life. Research into the underlying causes of 
MS and improving methods of diagnosing, treating and potentially curing 
MS is critical to improving the lives of our military servicemen and 
servicewomen and all of those living with MS.
                  multiple sclerosis research program
    The MS Research Program (MSRP) was established by Congress in 2009. 
Its vision is to prevent, cure, reverse, or slow the progression, and 
lessen the personal and societal impact of MS. Like many of the other 
programs within the CDMRP, the MSRP specifically encourages 
applications that address critical needs of the MS community and 
concentrate on: the biological basis of disease progression, risk 
factors leading to the prevention of MS, drug discovery and biomarkers 
for preclinical detection of MS. To date, Congress has appropriated 
approximately $40 million dollars to the MSRP, including $6 million in 
2017. From those appropriations, the MSRP has funded 74 awards that 
have funded studies that examine gap in MS from basic science to 
rehabilitation research. As this is a relatively new program, many 
studies are still in the publication process as biomarkers and other 
discoveries move through the scientific process and are incorporated 
into the drug discovery process.
    A particular area of interest in MS research is imaging technology, 
as diagnosis of MS and tracking disease progression remains 
challenging, both for active duty military personnel, veterans and 
civilians. MRI's are often used by healthcare providers to track 
disease activity. Currently, MRI findings are not accepted by the Food 
and Drug Administration as indicators of clinical meaningfulness in the 
drug development and approval process and more research is needed in 
the form of more long-term studies correlating brain MRI with 
disability progression.
    This is a critical body of research that will improve the drug 
development process, the ability of the healthcare system to better 
track disease progression and activity, and allow healthcare providers 
to better anticipate the needs of people living with MS. The National 
Institutes of Health, the nation's preeminent biomedical research 
facility, also conducts imaging research within the National Institute 
of Biomedical Imaging and Bioengineering: however, the emphasis on the 
research performed at that Agency is on technical development rather 
than detailed applications to specific diseases. The clinical 
application of the research done at MSRP is particularly important for 
those who are living with MS and diagnosed in the military, as it will 
facilitate better conversations surrounding troop readiness and the 
ability of an individual to deploy.
    The MSRP has funded many studies that have examined methods to 
improve imaging technology to better track disease progression and to 
allow for direct detection and quantification of myelin changes in 
people living with MS. Two innovative ways that imaging improvements 
are being explored are summarized below:
  --Researchers at Case Western Reserve University were funded by the 
        MSRP in 2009 to examine in vivo imaging of myelination for drug 
        discovery. Their goal was to develop novel therapeutics for MS. 
        These researchers developed a myelin-imaging agent, Case 
        Imaging Compound (CIC), which penetrates the blood-brain 
        barrier and attaches to myelinated regions of the brain. CIC 
        has been used for positron emission tomography (PET) imaging 
        that allows for direct imaging of myelin changes in vivo. These 
        studies indicate that this type of imaging could be used as an 
        imaging marker of can be used as an imaging marker of 
        myelination, which has the potential to be translated into 
        clinical studies in MS and other myelin-related diseases for 
        early diagnosis, sub-typing, and efficacious evaluation of 
        therapeutic treatments aimed at myelin repair. The researchers 
        plan to utilize this imaging to examine the efficacy of 
        therapeutic agents in animal models of MS. Results from this 
        study, and subsequent follow up studies, have been published in 
        Journal of Neuroscience and the Annals of Neurology.
  --A MSRP funded study that is currently underway at Vanderbilt 
        University is examining ways to improve magnetic resonance 
        imaging (MRI) techniques to quantifiably measure underlying 
        tissue abnormality in brain gray matter areas that results in 
        decreased cognitive performance. Conventional MRI methods are 
        not well suited to measure tissue damage and lesions in the 
        gray matter of the brain, if successful, this study may improve 
        the ability of the healthcare community to diagnose, understand 
        and treat cognitive issues. This study could be transformative 
        for people living with MS, but also for individuals who suffer 
        from other diseases and conditions that result in cognitive 
        impairment.
    Because of the tremendous impact the MS CDMRP has on research and 
development of potential therapies for MS, the National MS Society 
requests that Congress provide $10 million in discretionary 
appropriations. This funding will allow the CDMRP to continue the 
innovative research that will improve the lives of those living with 
MS. Because of limited funding, on average, fewer than 15 percent of 
research applications submitted to the MSRP were able to be funded 
annually between fiscal years 2009-2014.
    The Society thanks the Committee for its investment in the CDMRP, 
and in particular the MSRP. We appreciate the opportunity to provide 
written testimony and our recommendations for fiscal year 2018 
appropriations for the program. The MS CDMRP is of vital importance to 
people living with MS and we look forward to continuing to working with 
the Committee to help move us closer to a world free of MS.

    [This statement was submitted by Leslie Ritter, MA, National 
Multiple Sclerosis Society.]
                                 ______
                                 
          Prepared Statement of the Neurofibromatosis Network
    Thank you for the opportunity to submit testimony to the 
Subcommittee on the importance of continued funding for the Department 
of Defense's Peer-reviewed Neurofibromatosis (NF) Research Program 
(NFRP). NF is a terrible genetic disorder closely linked to many common 
diseases widespread among the American population. The highly 
successful Neurofibromatosis Research Program has shown tangible 
results and direct military application with broad implications for the 
general population.
    On behalf of the Neurofibromatosis (NF) Network, a national 
organization of NF advocacy groups, I speak on behalf of the 120,000 
Americans who suffer from NF as well as approximately 175 million 
Americans who suffer from diseases and conditions linked to NF such as 
cancer, brain tumors, heart disease, memory loss, bone abnormalities, 
deafness, blindness, and psychosocial disabilities, such as autism and 
learning disabilities. Thanks in large part to this Subcommittee's 
strong support, scientists have made enormous progress since the 
discovery of the NF1 gene in 1990 resulting in clinical trials now 
being undertaken by the NFRP.
    In fiscal year 2018, we are requesting $15 million to continue the 
Army's highly successful Neurofibromatosis Research Program (NFRP). The 
NFRP is now conducting clinical trials at nation-wide clinical trials 
centers created by NFRP funding. These clinical trials involve drugs 
that have already succeeded in eliminating tumors in humans and 
rescuing learning deficits in mice. Administrators of the Army program 
have stated that the number of high-quality scientific applications 
justify a much larger program.
                       what is neurofibromatosis?
    NF is an unpredictable genetic disorder of the nervous system that 
affects almost every organ system in the body. There are three types of 
NF: NF1, which is more common, NF2, which initially involves tumors 
causing deafness and balance problems, and Schwannomatosis, the 
hallmark of which is severe pain. NF causes tumors to grow along nerves 
including in the skin, just below the skin, and in the brain and spinal 
cord. NF is the most common neurological disorder caused by a single 
gene and affects more people than Cystic Fibrosis, hereditary Muscular 
Dystrophy, Huntington's disease and Tay Sachs combined. It strikes 
worldwide, without regard to gender, race or ethnicity. Approximately 
50 percent of new NF cases result from a spontaneous mutation in an 
individual's genes and 50 percent are inherited.
    NF can cause a myriad of devastating clinical problems including 
nerve and brain tumors; disfiguring skin growths; inability to heal 
after bone fracture, which may ultimately require amputation; 
psychosocial disabilities, including autism and learning disabilities; 
unmanageable chronic pain; deafness; blindness; cardiovascular defects; 
vascular disease; muscle weakness; and paralysis. NF gene mutations are 
also important `drivers' of cancers in the lungs, liver, brain and 
breast.
                    nf's connection to the military
    Neurofibromatosis (NF) has become a clinical `model' for advancing 
medical research. The genetic information learned from NF holds the key 
to understanding a number of health issues that benefit the war 
fighter, as well as the general population, including cancer, bone 
fracture and repair, vascular disease, wound healing and nerve 
regeneration, behavior and psychosocial issues, muscle weakness, and 
pain.
    The Neurofibromatosis Research Program (NFRP) is providing critical 
research that directly benefits the War Fighter including:
    Bone Repair.--At least a quarter of children with NF1 have abnormal 
bone growth in any part of the skeleton. In the legs, the long bones 
are weak, prone to fracture and unable to heal properly; this can 
require amputation at a young age. Adults with NF1 also have low bone 
mineral density, placing them at risk of skeletal weakness and injury. 
The NFRP is a strong supporter of NF1 bone defects research and as a 
result this field has made significant progress in the past few years. 
Bone fractures sustained by the war fighter and how to repair them is 
of interest to the military. Research studies will identify new 
information about understanding bone biology and repair, and will pave 
the way to new strategies to enhancing bone health and facilitating 
repair.
    Pain Management.--Severe and unmanageable pain is seen in all forms 
of NF, particularly in schwannomatosis, and significantly impacts 
quality of life. NF research has shown similarities between NF pain and 
phantom limb pain. NFRP funding has been critical in supporting this. 
Chronic pain, and how to treat it effectively, is one of the most 
poorly understood areas of medicine, but has very high relevance to 
those in the military recovering from service-related injuries. NF 
Research in this area could help identify new ways to target pain 
effectively with the right drugs or therapies.
    Vascular Disease and Wound Healing.--NF1 elevates the risk of 
vascular disease including aneurysm, stroke and vessel occlusive 
disease. This can cause premature death, particularly in younger 
patients. In addition NF1 seems to make small blood vessels around 
wounds less able to heal. This research will help develop markers for 
early detection of vascular changes that can predict those at risk of 
potential forthcoming cardiovascular events as well as developing 
treatments for this and to increase wound healing capacity which is of 
great relevance to the warfighter.
    Psychosocial Disabilities.--In the last couple of years, NFRP 
research has revealed common threads between NF1 learning disabilities, 
autism and other related disabilities. Research being done within the 
NF Clinical Trials Consortium, NFRP created clinical centers, has led 
to important findings and expanded research in this area. This research 
contributes to our broadening understanding of how brain signaling can 
impact on behavior and psychosocial difficulties. Members of the 
military returning from service can suffer from psychological trauma 
and it is not easy to understand how this can be effectively treated. 
As we learn more from the NF population about psychosocial function, we 
will be able to shed light on this area for the benefit of the 
military.
    Muscle Weakness.--There is growing evidence that children with NF1 
have inherent low muscle tone and muscle weakness which impacts on 
quality of life. This emerging area of NF research has potentially 
broad relevance. This research opens up a new area of NF research and 
has potential broader application for recovery from military injuries 
in particular restoring optimal muscle function.
                 the army's contribution to nf research
    While other Federal agencies support medical research, the 
Department of Defense (DoD) fills a special role by providing peer-
reviewed funding for innovative and rewarding medical research through 
the Congressionally Directed Medical Research Program (CDMRP). CDMRP 
research grants are awarded to researchers in every State in the 
country through a competitive two-tier review process. These well-
executed and efficient programs, including the NFRP, demonstrate the 
government's responsible stewardship of taxpayer dollars.
    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. From fiscal year 1996 through fiscal year 2016 
funding for the NFRP has amounted to $302.85 million, in addition to 
the original $8 million appropriated in fiscal year 1992. In addition, 
between fiscal year 1996 and fiscal year 2015, 353 awards have been 
granted to researchers across the country.
    The Army program funds innovative, groundbreaking research which 
would not otherwise have been pursued, and has produced major advances 
in NF research, including conducting clinical trials in a nation-wide 
clinical trials infrastructure created by NFRP funding, development of 
advanced animal models, and preclinical therapeutic experimentation. 
Because of the enormous advances that have been made as a result of the 
Army's NF Research Program, research in NF has truly become one of the 
great success stories in the current revolution in molecular genetics. 
In addition, the program has brought new researchers into the field of 
NF. However, despite this progress, Army officials administering the 
program have indicated that they could easily fund more applications if 
funding were available because of the high quality of the research 
applications received.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other Federal agencies that are involved in NF research, 
such as the National Institutes of Health (NIH). Senior program staff 
from the National Institute of Neurological Disorders and Stroke 
(NINDS), for example, sit on the Army's NF Research Program Integration 
Panel which sets the long-term vision and funding strategies for the 
program. This assures the highest scientific standard for research 
funding, efficiency and coordination while avoiding duplication or 
overlapping of research efforts.
    Thanks in large measure to this Subcommittee's support; scientists 
have made enormous progress since the discovery of the NF1 gene. Major 
advances in just the past few years have ushered in an exciting era of 
clinical and translational research in NF with broad implications for 
the general population. These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug therapies 
        for both cancer, hearing tumors, vision tumors, bone graft and 
        cognitive disorders;
  --Establishment of the Neurofibromatosis Clinical Trial Consortium 
        which includes an operation center and 19 clinical sites. 
        Allows for partnerships with well-established NF Centers, 
        pooling expertise and resources, quicker turn arounds of 
        scientific reviews and regulatory approvals, leveraged work 
        with pharmaceutical companies all towards the common goal of 
        new treatments and a cure for Neurofibromatosis;
  --Successful elimination of tumors in NF1 and NF2 mice with the same 
        drug;
  --Development of advanced mouse models showing human symptoms;
  --Rescue of learning deficits in mice with an already existing well 
        known drug;
  --Determination of the biochemical, molecular function of the NF 
        genes and gene products;
  --Connection of NF to numerous diseases because of NF's impact on 
        many body functions.
                        fiscal year 2018 request
    The Army's highly successful NF Research Program has shown tangible 
results and direct military application with broad implications for the 
general population. The program has now advanced to the translational 
and clinical research stages, which are the most promising, yet the 
most expensive direction that NF research has taken. Therefore, 
continued funding is needed to continue to build on the successes of 
this program, and to fund this promising research thereby continuing 
the enormous return on the taxpayers' investment.
    We respectfully request that you include $15 million in the fiscal 
year 2018 Department of Defense Appropriations bill for the Peer-
reviewed Neurofibromatosis Research Program. With this subcommittee's 
continued support, we will prevail. Thank you for your support.
                                 ______
                                 
               Prepared Statement of U.S. Biologic, Inc.
    Addressing: Fiscal year 2018 appropriation for the Defense Health 
Agency Congressionally Directed Medical Research Program (CDMRP) for 
Tick Borne Disease Research.
    Tick-borne diseases affect the lives of hundreds of thousands of 
Americans each year. Lyme disease stands as the most common vector-
borne disease and the second most commonly reported bacterial 
infectious disease in the United States, with 380,690 new cases in 2015 
at an annual economic cost of more than $4.1 billion. Lyme disease can 
cause lifelong, debilitating effects, and in some cases, death from 
direct and indirect health impacts.
    The impact on the military can be especially devastating, 
understanding that many of the U.S.'s largest military installations 
(e.g., Fort Drum, New York) are located in Lyme-endemic areas. In one 
recent study conducted by the USAPHC (2014), between 19.7 percent-37.5 
percent of ticks collected from service members across three States 
were infected by Lyme disease.
    At the same time, while Lyme disease carries an enormous public-
health risk and burden, it receives only a fraction of research funding 
as compared to other diseases.
    The fiscal year 2017 appropriations that created the Tick-Borne 
Disease Research Program was an important achievement in that it 
provided at least some funding to study new preventative methods for 
Lyme disease.
    Additional and expanded funds are necessary for the continued 
research and development of novel technologies that may fundamentally 
impact the way we protect our service members, their families, and the 
U.S. population at large.
    Please give this appropriations request every due consideration.

    Sincerely.

    [This statement was submitted by Chris Przybyszewski, Executive 
Vice President, U.S. Biologic, Inc.]
</pre></body></html>
